<html>
<title> - MOBILITY AND CONGESTION IN URBAN AND RURAL AMERICA</title>
<body><pre>[Senate Hearing 111-1232]
[From the U.S. Government Publishing Office]





                                                       S. Hrg. 111-1232

                   MOBILITY AND CONGESTION IN URBAN 
                           AND RURAL AMERICA

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 18, 2010

                               __________

  Printed for the use of the Committee on Environment and Public Works




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]







       Available via the World Wide Web: http://www.gpo.gov/fdsys
                                     ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

21-635 PDF                     WASHINGTON : 2016 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001     
       
       
       
       
       
       
       
       
       
       
       
       
       
       
       
       
       
       
       
       
       
       
       
               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                     ONE HUNDRED ELEVENTH CONGRESS
                             SECOND SESSION

                  BARBARA BOXER, California, Chairman
MAX BAUCUS, Montana                  JAMES M. INHOFE, Oklahoma
THOMAS R. CARPER, Delaware           GEORGE V. VOINOVICH, Ohio
FRANK R. LAUTENBERG, New Jersey      DAVID VITTER, Louisiana
BENJAMIN L. CARDIN, Maryland         JOHN BARRASSO, Wyoming
BERNARD SANDERS, Vermont             MIKE CRAPO, Idaho
AMY KLOBUCHAR, Minnesota             CHRISTOPHER S. BOND, Missouri
SHELDON WHITEHOUSE, Rhode Island     LAMAR ALEXANDER, Tennessee
TOM UDALL, New Mexico
JEFF MERKLEY, Oregon
KIRSTEN GILLIBRAND, New York
ARLEN SPECTER, Pennsylvania

                    Bettina Poirier, Staff Director
                 Ruth Van Mark, Minority Staff Director
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                            C O N T E N T S

                              ----------                              
                                                                   Page

                             MARCH 18, 2010
                           OPENING STATEMENTS

Boxer, Hon. Barbara, U.S. Senator from the State of California...     1
Inhofe, Hon. James M., U.S. Senator from the State of Oklahoma...     2
Barrasso, Hon. John, U.S. Senator from the State of Wyoming......     4

                               WITNESSES

Lomax, Tim, Research Engineer, Texas Transportation Institute; 
  Researcher, University Transportation Center for Mobility; 
  Regents Fellow, Texas A&M University...........................     5
    Prepared statement...........................................     7
    Responses to additional questions from:
        Senator Boxer............................................    22
        Senator Inhofe...........................................    25
    Response to an additional question from:
        Senator Voinovich........................................    28
        Senator Vitter...........................................    29
Haggerty, Hon. Scott, Supervisor, Alameda County, California; 
  Chairman, Transportation Steering Committee, National 
  Association of Counties; Chairman, Metropolitan Transportation 
  Commission.....................................................    33
    Prepared statement...........................................    36
    Responses to additional questions from:
        Senator Boxer............................................    40
        Senator Inhofe...........................................    41
    Response to an additional question from Senator Vitter.......    44
Townsend, Hon. James, Judge Executive, Webster County, Kentucky; 
  President-Elect, National Association of Regional Councils.....    45
    Prepared statement...........................................    47
Marlatt, Hon. Bryce, Oklahoma State Senator; Vice Chairman, 
  Oklahoma State Senate Committee on Transportation..............    66
    Prepared statement...........................................    69
Smith, Hon. John Robert, Former Mayor, Meridian, Mississippi; Co-
  Chair, Transportation for America; President, Reconnecting 
  America........................................................    74
    Prepared statement...........................................    76
    Responses to additional questions from:
        Senators Boxer and Carper................................81, 84
        Senators Boxer and Lautenberg............................81, 83
    Response to an additional question from Senator Boxer........    81
    Responses to additional questions from Senator Inhofe........    85
    Response to an additional question from Senator Vitter.......    86
 
                   MOBILITY AND CONGESTION IN URBAN 
                           AND RURAL AMERICA

                              ----------                              


                        THURSDAY, MARCH 18, 2010

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The full Committee met, pursuant to notice, at 10 a.m. in 
room 406, Dirksen Senate Office Building, Hon. Barbara Boxer 
(Chairman of the full Committee) presiding.
    Present: Senators Boxer, Inhofe, Barrasso, Sanders, Carper, 
and Udall.

           OPENING STATEMENT OF HON. BARBARA BOXER, 
           U.S. SENATOR FROM THE STATE OF CALIFORNIA

    Senator Boxer. The meeting will come to order. I am very 
pleased to call our Full Committee Hearing on Mobility and 
Congestion in Urban and Rural America to order.
    For me today is great day because yesterday, in a 
bipartisan vote, 68 to 29, the Senate passed the HIRE Act, and 
it includes an extension of all of our transportation funding 
for the Highway Trust Fund through the end of this year. The 
President will be signing this bill into law this morning, so I 
will be heading out to be there because I want to make sure 
that we really got it done.
    [Laughter.]
    Senator Boxer. It was a very big fight, and it should not 
have been.
    But here is the great news. One million American workers, 
including 100,000 in my State, will have confidence in knowing 
that their jobs are secure because we have renewed that bill. 
This is the first part of our Jobs Agenda. The Tourism Bill 
also will create about 160,000 jobs. So, we are moving toward 
that moment when we know that things have righted themselves.
    The other thing is that this extension--or I would say 
reauthorization, really--until the end of the year allows us to 
focus on moving forward with our own Transportation Bill here 
in this Committee. And this hearing that we are having today on 
mobility and congestion in urban and rural areas is an 
opportunity to examine these issues as we continue our work on 
the bill.
    According to the Texas Transportation Institute's recent 
Urban Mobility Report Americans in urban areas lost 4.2 billion 
hours traveling and burned an extra 2.8 billion gallons of fuel 
due to traffic congestion. They calculate that the cost to 
America's families and businesses is $87.2 billion, and that is 
up more than 50 percent over the previous decade.
    So, we know we have got this congestion. We know it is not 
good for our people. It is not good for our businesses. It is 
not good for our health. And I know that it is not just the 
urban and suburban areas. Rural areas have their share of 
issues when it comes to mobility, including safety concerns. 
The fatality rate is 2.5 times higher in rural areas than in 
urban areas according to the Federal Highway Administration.
    And while there are programs that provide funding to help 
address transportation needs in rural areas there are currently 
no targeted initiatives focused on the need of rural America in 
the Federal Highway Program. This is something we will be 
working on as we reauthorize a bill.
    Today's witnesses will discuss the mobility issues that 
both rural and urban areas face, provide examples of how we can 
ensure that both their needs are being met when it comes to 
congestion and safety. So, I do look forward to hearing from 
our panel.
    And in the nick of time comes our Ranking Member, Senator 
Inhofe. Welcome.

          OPENING STATEMENT OF HON. JAMES M. INHOFE, 
            U.S. SENATOR FROM THE STATE OF OKLAHOMA

    Senator Inhofe. Thank you, Madam Chairman. And I welcome 
all you guys here.
    Confession is good for the soul, I say, Madam Chairman, and 
one of our witnesses, Bryce Marlatt, used to work for me. He 
had western Oklahoma and did a great job, and now he decided 
that he wanted to get personally involved so he ran for the 
State Senate. He is a good friend. He has got a great handle on 
what needs are out in rural areas.
    So, Madam Chairman, I think this is a significant hearing. 
It is another one where you and I will get along and come to, 
probably, the same conclusions. And I am very glad to welcome 
Senator Marlatt here as we make decisions for the next Surface 
Transportation Bill.
    We need to keep asking ourselves what is the Federal role. 
This Nation's needs far exceed the available funding. That is 
the big problem that we have. And I think all of our panelists 
know this, that we have said since we were together back in the 
2005 Reauthorization Bill--while that was a huge bill, and we 
were criticized for the size of it, that did not do any more 
than maintain what we have today.
    So, this is the problem that we are faced with now. I think 
the purpose or one of the purposes of this hearing is to talk 
about how the needs may be different from the most populous 
areas and the urban areas and the rural areas. Certainly with 
Senator Marlatt here, he and I have traveled extensively in 
western Oklahoma, an area that is not very highly populated, 
and their needs are different from others.
    So, along the same lines the next Transportation Bill has 
got to continue to recognize that transportation needs for 
rural Oklahoma, though different in many ways, are just as real 
as those in urban areas. I think that a number of the proposals 
we have seen so far have ignored this fact. So, I am 
particularly pleased that this hearing will focus on both urban 
and renewal in rural areas.
    Obviously the Oklahoma Panhandle does not have the 
congestion problems of New York City or of San Francisco. In 
the Panhandle the important issues are connectivity, businesses 
and mobility of citizens, though we must remember that not all 
rural communities have the same specific concerns.
    One of the things that surprised you, Madam Chairman, is 
that if I were to take you in my airplane out to western 
Oklahoma, the area that he represents, you would see at any one 
time 500 of the windmills going around. One of the problems--I 
think it is going to come, at least I have heard, and I hope 
you address it in your opening statement--is that you have to 
transfer these blades there, and it requires more lanes than 
would normally be there.
    So, let us get on with the hearing. I am looking forward to 
hearing from our witnesses.
    [The prepared statement of Senator Inhofe follows:]

                  Statement of Hon. James M. Inhofe, 
                U.S. Senator from the State of Oklahoma

    Thank you, Madam Chairman, for calling this hearing, and 
thank you to all our witnesses for joining us today. I'd like 
to extend a special welcome to Oklahoma State Senator Bryce 
Marlatt, who represents the northwest area of the State. I know 
he has a great interest in transportation issues, and I look 
forward to hearing his comments.
    As we make decisions for the next surface transportation 
bill we will need to keep asking ourselves, ``What is the 
Federal role?'' This Nation's needs far exceed the available 
funding, so we must focus Federal funds on addressing areas 
that have a defined Federal responsibility with national 
benefits.
    Over the past year or so many organizations have offered 
ideas for the next transportation bill, including on congestion 
and other mobility issues in metropolitan areas. The problems 
are real and documented, as the Texas Transportation Institute 
(TTI) will detail in testimony for us. The solutions are less 
clear but certainly are not the same in all areas.
    Any emphasis on addressing metropolitan congestion problems 
must be based on the recognition that Washington does not 
understand the unique problems or the best solutions to those 
problems in individual areas. I think the Chairman would agree 
with me that what works in Tulsa may not work in Los Angeles. 
The strategies implemented in Portland may not be workable in 
Missoula. Any Federal efforts in this area should be structured 
to provide Federal assistance for Federal responsibilities 
while not attempting to force all areas to fit within any 
particular approach.
    Along the same lines the next transportation bill must 
continue to recognize that the transportation needs of rural 
America, though different in many ways, are just as real as 
those of our urban areas. I think a number of the proposals 
we've seen so far have ignored this fact, so I am particularly 
pleased that this hearing will focus on both urban and rural 
transportation needs.
    Obviously, the Oklahoma Panhandle does not have the 
congestion problems of New York City. In the Panhandle the 
important issues are connectivity of businesses and mobility of 
its citizens. Here, too, though, we must remember that not all 
rural communities have the same specific concerns. As with our 
urban areas, we must not try to force Washington so-called 
solutions on all rural communities without regard to their 
specific situations. We must focus Federal investment on 
Federal responsibilities while not making the mistake of 
assuming that solutions to urban problems are needed or 
appropriate in our rural communities.
    The Administration has been pushing a transportation and 
housing initiative called ``livability,'' which I believe is 
nothing more than code for transit oriented development. While 
details of the proposed program are still lacking, what I have 
heard so far makes me believe that the goal of this program is 
to move people to urban centers where transit options will 
negate the need to own a car. This is exactly the type of 
centralized decisionmaking and land use planning that I oppose. 
The Federal Government should not be trying to tell communities 
what transportation solutions they need or should want.
    Again, I thank you, Madam Chairman, for holding this 
hearing focusing on both urban and rural transportation needs. 
I look forward to discussing these issues with our witnesses.

    Senator Boxer. Thank you so much, Senator.
    Senator Barrasso.

           OPENING STATEMENT OF HON. JOHN BARRASSO, 
             U.S. SENATOR FROM THE STATE OF WYOMING

    Senator Barrasso. Thank you very much, Madam Chairman and 
Senator Inhofe, for holding this hearing today.
    The next Highway Bill must ensure equity in mobility, 
flexibility and connectivity. This bill should not assume or 
mandate that people in Wyoming and other rural States are going 
to get out of their vehicles. That is not going to happen. 
Taking a train, riding a bike to work in Wyoming or Montana is 
geographically and climatically prohibitive. Metro mobility 
concepts can work in urban areas, but it is just not feasible 
in our many rural States and any new program outside of the 
traditional formulas must include a rural component.
    Wyoming, like many other low populated States, has needs, 
but they are very different than the cities like New York or 
Los Angeles. I mean the needs are significantly different. In 
order to meet the highway system's national needs rural States 
must have the flexibility to use Federal dollars that serve the 
national interest. And I have full faith that the Wyoming 
Department of Transportation will continue to [unclear] Federal 
resources that will keep our highway system whole.
    The rural component of our interstate and national highway 
system is critical to keeping our Nation connected. Growing the 
Highway Program in one area by taking from another is going to 
leave gaps in our national highway system for years to come. 
Due to inflationary pressures on highway construction many of 
these holes in the system may never be filled. We cannot grow 
the program in urban areas while ignoring the rural highway 
component of this.
    The Interstate 80 Corridor is a critical link for moving 
commerce from the west coastal ports, including those is 
California and in Washington State and Oregon, to cities 
throughout the United States. I-80 captures over 60 percent of 
the truck traffic that is going with international commerce 
that does not originate or terminate in Wyoming. But is passes 
through our State.
    According to the Federal Highway Administration truck 
traffic on I-80 is going to double over the next 20 years. The 
Highway Program is already complicated enough. As we work 
through these issues we must keep in mind the fact that this is 
not all about congestion. Congress must not lose sight of the 
importance of a national, interconnected system of highways 
that includes access for rural America.
    Thank you, Madam Chairman, for your leadership in holding 
today's hearing.
    Senator Boxer. Yes. And Senator, let me just assure you. 
Take my State. I have got more rural areas than you can 
imagine, swaths of them, with just little tiny towns and just 
miles in between. So, I do not look at rewriting this bill as 
rural versus urban. We do not need to pick fights. I think we 
have got to look at all of the needs and meet them. So, I am 
with you, absolutely, on that point because we do not have a 
good bill if it does not address all of America. And that is a 
fact.
    So, we look forward to working with you. And that is why we 
have included the rural issues here today because we know they 
are key. And the last Highway Bill, we really did not have a 
title that dealt with it. So, let us work together on that.
    Senator Barrasso. Thank you, Madam Chairman.
    Senator Boxer. OK.
    Now we are pleased to turn to our terrific panel. We will 
start off with Mr. Tim Lomax, Research Engineer, Texas 
Transportation Institute. And I quote you so often, your 
Institute, it such a proven leader on this. I am very glad you 
are here.

STATEMENT OF TIM LOMAX, RESEARCH ENGINEER, TEXAS TRANSPORTATION 
  INSTITUTE; RESEARCHER, UNIVERSITY TRANSPORTATION CENTER FOR 
         MOBILITY; REGENTS FELLOW, TEXAS A&M UNIVERSITY

    Mr. Lomax. Thank you, Madam Chair. I hope that I live up 
your trust and do not make an Aggie of myself.
    Madam Chair and distinguished Members of the Committee, 
thank you very much for the opportunity to talk about 
congestion. I am completely with you that there are a lot of 
problems and issues that you all face. I think congestion is 
certainly one of them. It is something that we have seen 
affecting not just citizens but the freight shippers, the 
businesses and the manufacturers. So, I think it is a broad 
issue.
    I also think there are some solutions, and I hope that we 
get a chance to talk about those, too. But I am here to talk 
about the problem. I think we really have several congestion 
problems. We have got an urban congestion problem that is going 
to face our metro and urban regions for a while. There are 
going to be long travel delays. There are going to be 
unpredictable travel times. There are going to be problems for 
both people and freight. It is also going to be a problem in 
small and medium sized cities. This is not just a Los Angeles, 
San Francisco, Washington, DC, New York kind of problem.
    Congestion in rural areas looks different, but it is no 
less a problem. More often it is related to crashes, stalled 
vehicles, tourism, other special events. And it is easy for big 
city residents to dismiss that. But then they are stopped for a 
couple of hours on a highway behind a crash and the congestion 
problem comes home to them. And safety and congestion problems 
are not different. In many cases, they are solved by the same 
strategy or the same issue.
    So, we should really think about these problems and 
opportunities as sort of niche markets or a series of niche 
markets. Some problems have a clear technology or an 
infrastructure fix. Some of them are really only solved with 
better information. Some of them are better addressed by 
different policies or programs or incentives or perhaps 
different institutional relationships. Some of them require big 
solutions. Some of them require small solutions.
    And many of these congestion points or routes can be 
improved with relatively low cost strategies. So we are not 
talking about solutions that only require a lot of money. 
Simple ideas are often the ones that we should look at first 
because they not only solve part of the problem, but they also 
build trust with the public that the money that we are spending 
is returning good value, good return on their investment. It 
gives them some trust, gives the whole process a sense of 
transparency and accountability.
    So, I think the couple of problems that you spoke about, 
Madam Chairman, the wasted time, up from 2.7 billion hours to 
4.2 billion hours in the last 10 or 12 years, fuel consumption 
up to 2.8 billion gallons, it costs $87 billion. That is a 
congestion tax, if you will, of $750 per traveler in the urban 
areas that we look at across the country. If you live and work 
in a busy corridor, a big metro region, your time penalties and 
costs could be two or three times that.
    Over the last 29 months, however, there has been some good 
news on congestion. Unfortunately, for your job, that good news 
is related to the economic recession and high gas prices. I do 
not think that anybody is suggesting that an economic recession 
and high gas prices are a good solution to congestion. However 
2008 and 2009 showed lower congestion levels than in 2007.
    You could think of a trip that might take you 30 minutes in 
a free flowing time, say Huntington to downtown DC or 
Alexandria to downtown DC, something like that. It would take 
you 36 minutes on an average day. But take that same trip and 
turn it into one that has a weather problem or there is a crash 
or a stalled vehicle or something like that, it might take you 
something more like 47 minutes. So, this difference between an 
average problem and a reliability or unreliability problem is 
one that I think some programs should look at.
    I think that it is clear that the goals for cities and 
towns and rural areas are similar. We want better quality of 
life, better livability. But I think the programs, projects and 
policies that each city, county and State uses to solve those 
problems and to achieve those goals are going to be different. 
I think that is a reflection of the creativity and the 
diversity that we have in our cities and towns, and I think 
that it should be rewarded.
    Thank you very much for your time, and I hope to be able to 
answer some questions.
    [The prepared statement of Mr. Lomax follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    
    

    
    Senator Boxer. Thank you, Mr. Lomax.
    I am so happy I have the chance to introduce Hon. Scott 
Haggerty who is the Supervisor for my home State, the Alameda 
County Board of Supervisors. He is speaking on behalf of the 
National Association of Counties.
    I just have such fond memories of being a County Supervisor 
all those years ago. And I know that is where the rubber meets 
the road absolutely, whether you are talking about highways or 
anything else. You are really there with the constituency.
    So, we really look forward to your testimony, and when you 
are completed I am going to leave to go over for the signing, 
and I am going to hand the gavel over to Senator Sanders.
    Please proceed, Supervisor.

 STATEMENT OF HON. SCOTT HAGGERTY, SUPERVISOR, ALAMEDA COUNTY, 
   CALIFORNIA; CHAIRMAN, TRANSPORTATION STEERING COMMITTEE, 
   NATIONAL ASSOCIATION OF COUNTIES; CHAIRMAN, METROPOLITAN 
                   TRANSPORTATION COMMISSION

    Mr. Haggerty. Thank you very much for those kind words.
    Good morning, Madam Chair, and Members of the Committee. My 
name is Scott Haggerty, and I am a member of the Board of 
Supervisors in Alameda County, California. I also serve as the 
Chair of the Transportation Steering Committee for the National 
Association of Counties. I am also the Chairman of the San 
Francisco Bay Areas Metropolitan Transportation Commission 
which covers nine counties in the Bay Area with a total 
population of over 7 million citizens.
    Madam Chair, before I get started with my prepared remarks 
I would like to thank you for your leadership in getting the 
bill and going over to see--or to make sure--that the bill gets 
signed this morning that extends the Surface Transportation 
Program and affords $20 billion to the end of the year. It is a 
great achievement, and we certainly thank you for that.
    NACo's view is that congestion in the metropolitan areas is 
an important issue in America's transportation today. In many 
of the metropolitan areas we have constrained mobility and 
increasing congestion. We know that many commuters and freight 
carriers traveling in or through our metro regions do not know 
how long it will take to reach their destinations. We know that 
the delays in these trips are costly, they harm the 
environment, hurt America's commerce, and seem to get longer 
each year.
    County governments understand congestion and recognize that 
it is a big problem. Counties are increasingly very large 
jurisdictions. There are 34 counties with populations in excess 
of 1 million. Seven of the top 20 mega-counties are in 
California. Another 76 counties have between 500,000 and 1 
million constituents. We estimate that 120 million people live 
in these 120 large jurisdictions. Approximately 85 percent of 
all congestion, traffic congestion, transit ridership, and auto 
related air pollution are in metro areas.
    No place in America better reflects the challenges of 
mobility and congestion in both rural and urban America than 
Alameda County. It is home to more than 1.5 million people and 
to large cities such as Berkeley, Oakland and Fremont. It is 
home to one of America's busiest international seaports, the 
Port of Oakland, and to major transit agencies such as BART and 
AC Transit.
    Alameda County suffers from the worst highway congestion in 
the Bay Area, which in turn is the second most congested 
metropolitan region in the country behind only Los Angeles. 
This is a problem that we quite literally cannot afford to 
ignore.
    Yet my county is also home to vast ranches, orchards and 
vineyards. Alameda County is not only the gateway to San 
Francisco but to the high tech world of Silicon Valley and the 
agricultural bounty of the San Joaquin Valley as well.
    NACo strongly urges the reauthorization of the Federal 
Surface Transportation Program to include the creation of the 
Metro Mobility Program and that these regions with populations 
of 500,000 or more be eligible.
    We are pleased to see that this concept was included in the 
House Reauthorization Bill. The goal of this program would be 
to reduce and/or better manage congestion. Local government 
officials sitting on the Metropolitan Planning Organization 
would select projects for funding and a broad based congestion 
plan that would be required in each metro area and that 
includes a plan to better manage freight as well as commuter 
traffic.
    While there are a variety of strategies for reducing 
congestion that could be funded under this new program, a Metro 
Mobility Program needs to include capacity improvements as an 
eligible activity. However before any projects are funded there 
should be a clear statement with supporting data demonstrating 
how the project will address congestion and improve mobility.
    Give that breakdowns and accidents are responsible for an 
estimated 50 percent of congestion, incident management should 
be considered as a priority in the new reauthorization. An 
incentive grant program should be created which funds counties/
metropolitan areas that implement a comprehensive incident 
management plan. This could lead to improved cooperation among 
State, county and city governments in developing agreements and 
strategies to quickly identify and to act to remove vehicles 
from the roadways. This is an essential and often less 
expensive approach to congestion mitigation.
    We still need improvements in the transportation planning 
process, even if it requires more capacity and more planning 
funds. MPOs should have the authority to program all Federal 
highway and transit funds coming into a metro area, not just 
the Surface Transportation Program funds and the Transit 
Program funds.
    While the EPW Committee does not have jurisdiction NACo 
wants to be clear that it supports a robust transit program 
that improves mobility, reduces congestion, conserves energy 
resources, limits greenhouse gases and serves the needs of our 
underserved population. We cannot fail to mention the nexus 
between transit and highways since thousands of buses do travel 
on roadways that are funded with programs that this Committee 
authorizes.
    This would not be a NACo statement if I did not touch on 
rural issues. We strongly urge this Committee to retain both 
the Federal Highway Bridge Program and the Off-System Bridge 
set aside. Without these programs there is no assurance that 
there would be an adequate investment by States and local 
governments in our rural transportation infrastructure.
    We also recommend the expansion of the High Risk Rural Road 
Safety Program and an enhanced rural planning process. Finally, 
we must improve project delivery, particularly for many less 
complicated and smaller projects, through a streamlined process 
that does not unacceptably stretch out environmental review of 
the permitting process. The 90 percent of Federal highway 
projects that receive categorical exemptions should have a 
faster and easier path to project approval and completion.
    We are a decade into the 21st century, and despite all 
efforts by all levels of government congestion and mobility 
solutions continue to challenge us. We cannot afford to 
continue the status quo.
    This completes my testimony. I would be pleased to answer 
any questions from members of the Committee.
    [The prepared statement of Mr. Haggerty follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
  
    
    Senator Boxer. Well, thank you so much. As I go off for the 
signing of this reauthorization of the Trust Fund I do want to 
thank Senator Inhofe. He has been a really good supporter of 
transit, highways, of our Highway Trust Fund, and I just wanted 
to note that. And of course colleagues here at the table who 
helped us.
    John--before you leave. Senator. I wanted you to just hear 
this just because it interested me when I said we had so many 
rural roads. We called the Federal Highway Administration--just 
so you know that I was not just being rhetorical. We have 
89,000 miles of urban roads in California and 83,000 miles of 
rural roads. So, we are together. We are going to work together 
because we all have common interests. I just want to make sure 
you knew that.
    Senator Barrasso. Thank you, Madam Chairman.
    Senator Boxer. With that, I am going to hand off the baton, 
as it were, to Bernie Sanders and thank my colleagues.
    Senator Sanders [presiding]. Thank you, Madam Chair.
    We are next going to hear from Hon. James Townsend, Webster 
County Judge Executive from Kentucky on behalf of the National 
Association of Regional Councils.
    Thanks for being with us, Mr. Townsend.

  STATEMENT OF HON. JAMES TOWNSEND, JUDGE EXECUTIVE, WEBSTER 
  COUNTY, KENTUCKY; PRESIDENT-ELECT, NATIONAL ASSOCIATION OF 
                       REGIONAL COUNCILS

    Mr. Townsend. Thank you very much.
    Good morning, Madam Chairman, Ranking Member Inhofe and 
other members of the Committee. I appreciate the opportunity to 
testify and ask that my written statement be submitted for the 
record.
    Senator Sanders. Without objection.
    Mr. Townsend. As said, my name is Jim Townsend. I am County 
Judge Executive of Webster County, Kentucky, in the western 
part of the State. And we are very rural. Also, I am President-
Elect of the National Association of Regional Councils, and I 
also serve on the Executive Committee of my regional planning 
organization, which is the Green River Area Development 
District.
    Today I will address the needs and opportunities in 
America's regions, particularly rural America. My comments will 
cover four main areas and will highlight the important role 
regional planning organizations have in delivering 
transportation and services to localities.
    America's rural regions can be best served in the next 
Federal Transportation Bill by providing local involvement in 
safety, robust investment in both urban and rural regions, 
opportunities for livability through comprehensive planning, 
and a strong role for rural, local elected officials through 
their regional transportation planning organizations.
    Locally elected officials are very aware of the safety 
needs in our communities. Rural areas have more than half the 
highway deaths and twice as many serious injuries. This is 
unacceptable to us. NARC recommends strengthening urban and 
rural regional planning to develop the plans and programs 
necessary to address this problem. Education and enforcement 
through regional planning organizations are key to improving 
safety.
    In transportation policy many are focused on urban needs 
and the effects on congestion. While NARC supports this 
discussion we stress the importance of addressing rural 
congestion and mobility challenges that we have. NARC 
recommends that the Federal Government strengthen the rural 
planning process and actively include the concerns of rural 
communities. Rural, local elected officials stand ready to 
communicate local needs and implement the Federal vision.
    We applaud the Federal focus on livability and strongly 
support including both urban and rural planning and 
implementation. The National Association of Regional Councils 
recommends including local governments through our regional 
planning organizations to identify on-the-ground livability 
needs and implementation strategies, taking into account the 
rural ties to the Department of Agricultural and to the 
Economic Development Administration.
    As you are aware, regional planning organizations are 
governed by local officials. They are elected. The relationship 
between localities and regional cooperation is a very effective 
mechanism for developing consensus and solutions. NARC 
recommends that MPOs retain their current regional 
decisionmaking processes and that rural planning organizations 
are given authority to implement the Federal and State visions.
    We thank this Committee for their continued support of 
regionally important programs that get to heart of the local 
problems and the local needs.
    Again, I would like to thank you for the opportunity to be 
here today. Please use NARC as a resource for any Committee 
activities. I welcome any questions, and look forward to 
working together.
    Thank you very much.
    [The prepared statement of Mr. Townsend follows:]
    
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
    
    
    
    
    Senator Sanders. Thank you very much, Mr. Townsend.
    The Honorable Bryce Marlatt is the Vice Chairman of the 
Oklahoma Senate Committee on Transportation. Thanks for being 
with us.
    Mr. Marlatt.

 STATEMENT OF HON. BRYCE MARLATT, OKLAHOMA STATE SENATOR; VICE 
  CHAIRMAN, OKLAHOMA STATE SENATE COMMITTEE ON TRANSPORTATION

    Mr. Marlatt. Thank you very much, Mr. Chairman, and thank 
you Ranking Member Inhofe. I really appreciate the opportunity 
to testify before this Committee.
    As you said, I serve in the Oklahoma State Senate, Senate 
District 27, and also serve as Vice Chairman on the 
Transportation Committee. Senate District 27----
    Senator Inhofe. Let me interrupt. Tell the panel what your 
district is like.
    Mr. Marlatt. Senate District 27 is the largest Senate 
district in the State of Oklahoma and the entire legislature. 
It encompasses the entire Panhandle of Oklahoma and all of the 
northwest part of the State. It is about 320 miles across, so 
we have got a lot of ground to cover, obviously.
    Anyway, I really appreciate the opportunity to be here, and 
we encompass a lot of obvious U.S. Federal highways and 
highways on the national system, and I am continually working 
on transportation needs in the State of Oklahoma.
    Approximately 60 million people--21 percent of the 
population--live in rural communities in the United States. 
This is an increase of about 11 percent since the 1990s. 
Millions of Americans travel on rural, county and State road 
systems every day. Rural roads are vast throughout the country 
and have significant needs.
    The county highway system in Oklahoma is comprised of 
85,000 miles. Oklahoma's rural nature and historically ag and 
energy based economy have witnessed a conversion of many farm-
to-market roads into highways. While these roads were ideal for 
transporting livestock and crops to market they are less than 
adequate when supporting the daily needs of transportation.
    In fact based on the evaluation of safety features such as 
passing opportunities, adequate sight distance, the existence 
of paved shoulders, recovery areas for errant vehicles and the 
severity of hills, 24 percent of our over 12,000 miles of rural 
highways alone rate as critical or inadequate.
    Over 4,700 miles of Oklahoma highways are two-lane roads 
without shoulders, and this lack of adequate capacity for 
Oklahoma rural highways prevents rural Oklahoma from 
participating fully in the State and national economy. We will 
never have the jobs and economic development that we need in 
rural Oklahoma or rural America if we do not address 
infrastructure.
    Rural roads also pose unique challenges. For example, 
generally speaking rural roads have a greater rate of traffic 
fatalities than urban roads. Rural accidents occur at an 
alarming rate, and the severity of the collisions is 
significant. When specifically considering the accidents that 
occur in Oklahoma's critical or inadequate highways, 86 percent 
happen on rural two-lane roads. However many of these critical, 
needed highway safety improvements that could prevent property 
damage, personal injury or the tragic loss of life remain 
unattended due to the lack of funding.
    In particular I have been working to upgrade U.S. Highway 
270, which stretches from the west part of Oklahoma City 
through northwestern Oklahoma and all throughout the Panhandle. 
Currently, the Oklahoma Department of Transportation has plans 
for each section of the crucial corridor through 2017. These 
upgrades are planned in each county from Canadian through 
Woodward and on throughout the Panhandle. It is extremely 
important for me, from the perspective of safety, jobs and 
participating in the Oklahoma national economy, for this 270 
corridor to be completely modernized.
    The Nation's rural bridges have unique needs. For example 
Oklahoma has over 14,000 bridges, 5,600 of them are on rural 
highways. When considering the 6,700 highway bridges, over 
1,400 are either too narrow to support daily traffic or have 
structural deficiencies or both. More than 1,100 of the 1,400 
bridges, or 78 percent, exist in rural areas, and in addition 
rural commerce can be severely impacted by bridges with 
restricted load limits as detours can add many miles to the 
price paid for the transportation needs in fuel and time.
    It is imperative for the rural highways and bridges to be 
returned to and kept in a state of good repair. These highways 
move entire sectors of our economy including ag, energy, 
forestry and tourism, to mention a few. Steady, predictable and 
increasing funding sources are necessary because funding allows 
our transportation professionals to plan our progress and 
affords the opportunity for our contractors to develop their 
work forces and construct our roads and bridges as efficiently 
as possible.
    States and local units of government cannot alone finance, 
construct and maintain national systems of highways. A strong 
Federal commitment is necessary to ensure the continuity and 
viability of our transportation infrastructure far into the 
future.
    Since the current Federal Highway Authorization Bill 
expired on September 30, 2009, States have been operating under 
a string of continuing resolutions which cost Oklahoma about 
$15 million a month. Congress' recent action to extend the 
Federal Highway Program through the end of the year is 
significant and will help while a new reauthorization bill is 
under development.
    And Oklahoma is consistently proud of the work of our 
Senior Senator, Senator Inhofe, and I am proud to say that I 
have worked for you, and thank you very much for the 
reauthorization bill that you worked on.
    The States want to do our part to find new funding 
solutions to our Nation's transportation needs. Over the last 3 
years, there has been approximately a 5 percent decline in 
Oklahoma motor fuel tax due to less demand and increased fuel 
efficiencies. This has resulted in a $30 million loss in 
revenues for my State's roads and bridges.
    As Vice Chairman of the Oklahoma Transportation Committee, 
I offered Senate Bill 1941 to create an Innovative Funding Task 
Force for the purpose of studying and evaluating innovations, 
technologies and new methods being employed nationally and by 
other States to more adequate and equitably fund roads and 
bridges and infrastructure, including both new construction and 
maintenance. This legislation passed the Oklahoma Senate on 
March 1st, and I would expect quick consideration in the House 
of Representatives.
    Currently, the funding sources of fuel and gross production 
tax fluctuate a great deal. The Federal fuel tax is----
    Senator Sanders. If you could wind it up, Mr. Marlatt, 
please.
    Mr. Marlatt. Oh, OK. We have made great strides in 
investing in the infrastructure and reversing the tide of 
declining funding in Oklahoma. And I appreciate your support 
and your work on the new authorization bill and would yield for 
questions as you see fit.
    [The prepared statement of Mr. Marlatt follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
  
    
    Senator Sanders. Thank you very much.
    Our next panelist is Hon. John Robert Smith. He is the 
former Mayor of Meridian, Mississippi. He is the Co-Chair of 
Transportation for America and President of Reconnecting 
America. And Senator Carper wanted to say a few words of 
introduction.
    Senator.
    Senator Carper. I just wanted to welcome Mayor Smith to 
join us. I was privileged to serve on the Amtrak Board when I 
was Governor of Delaware, and our terms did not overlap. When I 
stepped down he was joining the Amtrak Board, and he went on to 
become Chairman of the Amtrak Board. I think he may have 
succeeded Tommy Thompson, if I am not mistaken, as the Chair 
and was appointed by President Clinton and I think recommended 
by Trent Lott.
    But he is a real good, common sense guy and he understands 
transportation well. And a pretty good mayor, too. So it is 
very nice to see you again. Welcome.
    Thank you.

 STATEMENT OF HON. JOHN ROBERT SMITH, FORMER MAYOR, MERIDIAN, 
 MISSISSIPPI; CO-CHAIR, TRANSPORTATION FOR AMERICA; PRESIDENT, 
                      RECONNECTING AMERICA

    Mr. Smith. Chairman Boxer, Senator Inhofe, esteemed members 
of the Committee, I am John Robert Smith. I am the President of 
Reconnecting America and a founding partner of Transportation 
for America Coalition, which we call T for America.
    I want to thank the Committee for holding this hearing to 
discuss the transportation challenges facing small towns and 
rural America. I know those issues firsthand for I served for 
16 years as the Mayor of my home town of Meridian, Mississippi, 
a small city of 40,000 people.
    Transportation challenges facing small town America are not 
those of congestion only but of access. Long commutes, volatile 
energy prices and shifting demographics all impact the 
prosperity of these communities. Many small towns and rural 
areas lack the financial resources, the planning capacity, and 
the authority to implement solutions to their transportation 
needs. I think a bold new policy is needed on a Federal level 
to address those needs.
    Last year the T for America Campaign hosted a series of 
roundtable discussions with transportation practitioners, non-
profit advocates, service providers and elected officials. This 
working group identified the barriers to accessible 
transportation in non-metropolitan areas and prepared six 
principles of reform. Those ideas are summarized in a white 
paper that we will release later today entitled Principles for 
Improving Transportation Options in Rural and Small 
Communities. You will find them as an appendix to my written 
testimony.
    First, we must empower local communities through 
institutional reforms. You have heard that from other speakers. 
The residents and leaders of small towns and rural communities 
have the responsibility for key elements of the transportation 
system that connect their towns to other areas. They know best 
the local transportation needs and challenges, and they just 
want to be a part of the decisionmaking process in finding 
those solutions.
    Second, it is imperative that America improve the condition 
and safety of its transportation system. The poor condition of 
many of our roads and bridges has reached a crisis point, 
threatening lives in this economy. Let me share a couple of 
statistics.
    More than 450,000 rural bridges, almost half of the bridges 
of more than 20 feet in length in this country, are 
structurally deficient. Fifty-eight percent of highway 
fatalities occur on rural roads, a rate twice that of urban 
roads. We must find highway design solutions and commit funding 
to reverse these dangerous conditions that threaten the lives 
of our people.
    Third, there must be adequate investment in public transit. 
The demand for transportation options is growing in rural 
America. Aging baby boomers like me in many small rural towns 
are increasingly relying on local transit providers. When gas 
prices spike in my home town of Meridian people must depend on 
public transit just to see the doctor, go to the grocery store 
or get to their jobs.
    Fourth, there is a desire among those who live in rural 
America to preserve and create livable communities. Now, some 
think that livable communities is a catch phrase only applied 
to large metropolitan areas. I can tell you that is not the 
case. Sprawling development patterns have damaged the historic 
character and the heritage of many small towns.
    In my own home town through investment in our downtown and 
the creation of a transportation hub we bolstered the local 
economy and reversed the decline of our historic buildings in 
our city center. Other communities can do likewise if this 
country will commit the resources needed to enhance the 
economic competitiveness of existing communities.
    Fifth, investment in intercity transportation networks will 
allow us to link public transit to passenger rail to high speed 
rail to commercial air service and intercity buses. This is the 
key to mobility in rural America--connectivity.
    Our decision in Meridian to invest in the revitalization of 
our historic train station as a multi-modal center proved to be 
a catalyst for transforming our main street, increasing public 
transportation ridership and helping to generate millions of 
dollars of private sector development in surrounding 
neighborhoods.
    Expanding and funding eligibility of intercity 
transportation facilities and intercity rail and bus service 
are critical in rural America.
    Finally, we must renew our focus on the movement of goods, 
particularly through rural America. State and local governments 
need the flexibility to invest in multi-modal infrastructure 
like rail, inter-modal transfer points and inland waterways. 
Multi-modal freight solutions are required to ensure that rural 
America can be competitive in this 21st century global economy.
    In conclusion, a safe, strong and efficient transportation 
system in our small towns, rural areas and metropolitan cities 
is necessary if we are going to continue to grow our economy 
and provide the American dream to everyone.
    Thank you.
    [The prepared statement of Mr. Smith follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
 
    
    Senator Sanders. Thank you very much.
    Well, let me begin the questioning, then we will go to Mr. 
Inhofe.
    I heard Mr. Marlatt and Mr. Smith, among others, and I came 
a little bit late, talking about among other things the 
deterioration of our roads and our bridges. In terms of full 
disclosure I come from Vermont, one of the most rural States in 
the country, and we have exactly those problems as well. We 
just tore down a major bridge going between New York State and 
Vermont. It could not be repaired, at great economic loss to 
those communities.
    In addition, we are in the midst of a major recession with 
massive unemployment. From your testimony, what I hear, are you 
supportive of a massive infusion of Federal funds into 
rebuilding our infrastructure?
    Mr. Lomax.
    Mr. Lomax. Yes.
    Senator Sanders. Mr. Haggerty.
    Mr. Haggerty. Yes, definitely.
    Senator Sanders. Mr. Townsend.
    Mr. Townsend. Yes, sir.
    Senator Sanders. Mr. Marlatt.
    Mr. Marlatt. Yes.
    Senator Sanders. Mr. Smith.
    Mr. Smith. Yes, sir, very much.
    Senator Sanders. All right.
    We also have a $12.5 trillion national debt. Can I have 
some suggestions--and I happen to agree with you, I think, in 
terms of infrastructure, our roads and bridges are not getting 
better when we neglect them. Right? So, if we are going to be a 
strong, competitive Nation economically, we are going to have 
to adjust this problem at one point or another. We may as well 
do it now and create jobs.
    Do you have suggestions as to how we might pay for the 
improvement of our infrastructure? Anybody who has ideas, I 
would like to hear them.
    Mr. Haggerty.
    Mr. Haggerty. Thank you very much. Well, first of all, I 
think the National Association of Counties clearly supports 
increasing the gas tax. It also wholeheartedly supports the 
inclusion--or actually making sure that we index it so we do 
not have to continue to go through this problem of trying to 
figure out if we can get the gas tax raised at any given time.
    I think that it is also important that we look at other 
ways to put taxes on the user fee, especially as vehicles 
become more efficient. I will say this to you, though, Senator. 
You know when some of the counties come to you, we have come to 
you as self-help counties. We are actually doing what we can 
also to raise funds through maybe a half-cent sales tax 
measure, or you know, we have a fee on our bridges. If you have 
an access to the bridge, there is a fee on that.
    And we will also be moving on, in Alameda County and 
actually the MTC planning area, the regional HOT lane, actually 
regional HOV network, where some of these lanes will convert to 
HOT lanes and will help not only to reduce congestion in these 
areas because as we move to a congestion pricing on the Bay 
Bridge, for example, on July 1st, we estimate that there will 
be 23 percent reduction in congestion at that time.
    So, those are just a few examples.
    Senator Sanders. OK. Other thoughts about how we could----
    Mr. Smith.
    Mr. Smith. Yes, sir, Senator. T for America is on record as 
supporting a 20 cent increase in the gas tax indexed to 
inflation, a 2.5 percent sales tax on motor fuels, and an $8 
per barrel surcharge on oil. Each one of these would leverage 
$250 billion in additional resources for transportation 
solutions.
    We wanted to find out what the public thought about this so 
we did some polling with Democrat and Republican pollsters, and 
we will release that poll later this month. But the poll does 
show that there is public support for additional resources if 
the transportation decisions are transparent and those who make 
the decisions----
    Senator Sanders. So, do you have a number in the back of 
your head about if we were to adequately fund our 
infrastructure needs? We are not even here talking about water 
and other infrastructure, just roads and bridges, for example. 
How much would we as a Nation need to be spending?
    Mr. Smith. Well, I think we are looking at $500 billion-
plus.
    Senator Sanders. OK. Over what period of time?
    Mr. Smith. Well, that $500 billion would be over a 6-year 
authorization. You know, we are building a future for my 
grandchildren.
    Senator Sanders. Right.
    Mr. Smith. President Reagan fought hard for a 5 cents per 
gallon gas tax that included transit funding and he made a 
promise to, then, my children, in 1983. What promise will we 
make? My grandson is 4 years old and wants to have an 
opportunity to live in Meridian and be accessible.
    Senator Sanders. All right.
    Other thoughts, briefly, on how we fund a massive 
improvement in roads and bridges. Any other ideas out there? 
Let me get Mr. Townsend.
    Mr. Townsend. Yes, sir. NARC is right now working on a 
regional infrastructure improvement zone concept that we are 
working on to create financing of infrastructure, and we would 
be happy to provide the Committee with detailed information on 
that.
    Senator Sanders. What I find interesting about this whole 
discussion is not only are we obviously addressing a major 
national issue; I do not think there is any debate, no matter 
what your politics may be, progressive or conservative, bridges 
falling down are bridges falling down. And it has to be 
repaired. But also, I would reiterate that in the midst of a 
recession we can create some pretty good jobs as we rebuild 
this infrastructure.
    So, thank you very much.
    Senator Inhofe.
    Senator Inhofe. Well, thank you, Mr. Chairman. This is one 
of the few areas where we agree philosophically on anything.
    [Laughter.]
    Senator Inhofe. Well, that is true.
    I have always said when I was first campaigning for this 
job and the different times I have been elected, four times, 
that we have some priorities. No. 1 has always been, in my 
position, national defense. No. 2 is infrastructure.
    Now, when Senator Marlatt was talking about the condition 
of our bridges in Oklahoma I want all of you to know that we 
are now ranked dead last in the condition of our bridges. And 
it was not too long ago, Mr. Chairman, that we had a lady who 
is the mother of two who, in driving under a bridge, about a 
football size--it dropped on her and killed her. What we are 
talking about are life and death issues. That is why the line 
of questioning that the Chairman has put forth to you is very 
significant.
    There are two problems that I see with the Oberstar bill, 
and I want to kind of get your reaction. I will, of course, 
start with you, Bryce. He is focusing very heavily on the 
transit bike paths and sidewalks.
    Now, I would like to have you--you talked about State 
Highway 270. I am very familiar with that, and before you got 
here, in my opening statement, Mr. Chairman, I acknowledged 
that if you get with me in my airplane, and you go through 
there, you can see at any one time 500 of the wind generators 
going at the same time. And one of the problems you have is 
actually transporting the blades. I would like to have you 
address that.
    Anyway, I want you to get on record in terms of how you 
feel about the amount or the percentage that is used for the 
various transit bike paths and sidewalks as opposed to roads, 
highways, bridges and so forth.
    Mr. Marlatt. Thank you, Senator. I guess the concern with 
Chairman Oberstar's bill is that it takes away the ability for 
expansion on our traffic, and it takes away the ability for 
rural America to be connected to the global economy.
    My Senate district, as you well know, has a vast--we are 
expanding dramatically in clean energy, compressed natural gas, 
and we have got a huge influx of wind blades and turbines that 
are coming in, over a $300 million investment alone in my 
district. We have got the largest substation in the United 
States----
    Senator Sanders. Excuse me, a $300 million investment in 
wind in your district?
    Mr. Marlatt. In wind in my district, yes, sir. And that has 
the opportunity to continue to expand if we have the ability to 
stay connected. But one of the main concerns is the lack of 
shoulders, the two-lane roads going in and out, and the ability 
to transport the towers and the blades into my district.
    The largest substation in the United States is being built 
in the northwest part of the State of Oklahoma to disperse the 
energy that we are producing, whether it be from natural gas, 
oil or wind. So, I really feel like the fact that the 
congestion issues are not going to be something that in rural 
Oklahoma we need expansion of roads; we need expansion of 
shoulders and highways so that we can continue to provide for 
the United States.
    Senator Inhofe. Yes. Bryce, the reason I bring this up 
where there is a lot of talk about renewables and all that, 
that presents other problems, as in his district, even getting 
the blades there. These are things we have to consider. I know 
we are going to have another round of questioning, but I want 
to get to both Mr. Haggerty and Judge Townsend.
    I mentioned there are two things I did not like 
particularly about the Oberstar bill, and that was one we 
already talked about, and the other is the expanded Federal 
decisionmaking and control over issues traditionally handled at 
the local and State levels. Examples include specific Federal 
performance standards, Federal approvals of substance in 
various State and local plans, Federal project selection, and 
all that.
    I would like to have the two of you respond to whether or 
not you agree with my concern.
    Mr. Townsend. Yes, sir, I do agree with your concern. We 
feel that on the local level we should have more input into the 
spending and where it needs to be spent. We have the same 
problems in western Kentucky that are in Oklahoma. We have a 
lot of traffic. We basically are a farm county, and western 
Kentucky is basically farm country. We also have coal mines 
there, and coal trucks run our highways, and it is very 
difficult to keep those roads up and in condition from the 
State level as well as the county level.
    Senator Inhofe. So you think State, county and local 
government probably knows more about your needs than the 
Federal Government does?
    Mr. Townsend. Yes, sir, I do.
    Senator Inhofe. What do you think--the reason I singled out 
the two of you is because you both are representing large areas 
that transcend urban and rural areas.
    Mr. Haggerty. We certainly agree with you, Senator. We 
believe that at the local control we certainly go through a 
very extensive planning process. You know, we do what we can to 
work through the problems of what local constituents on the 
ground are doing day to day, and we feel that we certainly have 
a better understanding of what it is that the needs are.
    We would want to make sure that, you know, as we move 
forward with any plan, that it continues to work toward 
reduction of congestion.
    Senator Inhofe. Thank you, Mr. Chairman.
    Senator Sanders. Mr. Carper, Senator Carper.
    Senator Carper. Thank you, sir. Thank you, Mr. Chairman.
    I want to turn to the issue of looking for opportunities to 
find multi-modal solutions to our transportation challenges. 
Some of you mentioned that in your testimony. I think certainly 
Mayor Smith did.
    I like to tell the story about once I was trying to get to 
Mackinac Island near Michigan. I drove my car from my home in 
Wilmington to a parking garage, and then I walked to the train 
station. I took the train to BWI Airport and got off the train 
and took a bus to the airport terminal, flew to Travers City, 
Michigan, got off the airplane and had another bus to a ferry 
which took us across the lake. We got off the ferry and got on 
a horse drawn carriage which took us to our hotel. I love 
thinking back about how that really met my--how all those 
different solutions helped me get where I needed to go that day 
in a pretty comfortable and interesting way.
    Could you share with us some examples of multi-modal 
solutions that you are aware of, that you have worked with, and 
give us some ideas of how we could foster more of those from 
where we sit?
    Mr. Smith. Yes, sir. Senator, your trip sounds not unlike 
my honeymoon. We were married at a multi-modal transportation 
center, we took the train to Washington, we flew to Knoxville, 
and then we drove up into the Smoky Mountains.
    Senator Carper. And then lived happily ever after?
    [Laughter.]
    Mr. Smith. Well, that is all I will share with you about 
that trip.
    [Laughter.]
    Mr. Smith. But what we did in downtown Meridian, we took 
the remnants of a historic train station, and this was with 
ISTEA money, we invested $1.3 million of city funds, about $5 
million in ISTEA funds, and we created the first multi-modal 
transportation center in the South, one of the first in the 
country, especially for a city of our size, where we brought 
all modes of transportation together--the passenger rail 
services, intercity bus service, city transit service, taxi 
service, connections out to the airport.
    What that $1.3 million did of city investment, it has 
leveraged today $135 million of additional public-private 
sector investment within three blocks of that station. It has 
created transportation choices for people; people are living 
back downtown for the first time in my lifetime. And I live in 
the home my grandfather built. My grandson is the fifth 
generation of our family to grow up in our house. Now, we are 
seeing market rate apartments, condominiums, all connected into 
the downtown living.
    We were the last HOPE VI project awarded, or one of the 
last in this country, totally lifted one whole historic sector 
of Meridian, rebuilt real homes instead of housing projects to 
warehouse human beings, with a sense of sidewalks and 
landscaping and lighting. But it is connected by transit so 
that those citizens who live there connect to their jobs, a lot 
of them in the service sector, to the community college for 
education and to the hospitals for healthcare. That has 
leveraged other economic development.
    Senator Carper. Our role--what can we do to foster that 
sort of development? My question is what can we do at the 
Federal level to help encourage and nurture and foster those 
kinds of activities?
    Mr. Smith. Well, to make those kinds of multi-modal hubs 
applicable, especially under livability, and when you think 
about livable communities, cities 50,000 and less need to be 
eligible for those funds as well. Those are small city centers 
that really lift regions. We support 350,000 people in rural 
counties around us. So, making such facilities eligible and 
allowing smaller cities to compete under what I think is a 
pretty exciting livability agenda that the Administration has 
rolled out.
    Senator Carper. Any other thoughts on this?
    Yes, sir, Mr. Haggerty.
    Mr. Haggerty. Thanks, Senator. First of all, I would just 
like to say that NACo strongly supports mass transit, which 
includes rail bus, van transit ferries, and our urban, suburban 
and rural member counties want to offer more transit.
    I think the problem with transit from time to time becomes 
we need to make it more convenient. And I think, now speaking 
as a member of the Metropolitan Transportation Commission, one 
of the things that we have put in play is this 511.org. That is 
simply a Web site that you can go to or even call on, and they 
will do a trip planner for you.
    For example, I am saying I am leaving my house in Dublin, 
California--which I really do live in Dublin, I am not just 
trying to be Irish--and then, you know, from Dublin, 
California, and I need a trip planner via transit to get to San 
Francisco on Van Ness Street. It will print that out for me, or 
it will tell me verbally how to do it and which I can do.
    That is the key. That is making transit convenient. That is 
helping people. Because part of the problem is, most of the 
people get out there and they say, I do not know how the heck 
to do this, I do not know how to ride the local bus to BART and 
then take BART, you know, to MUNI, and then get on the MUNI 
train and get to my final destination.
    Senator Carper. Well, that is great. That is great stuff. 
Thank you.
    If we have time? Mr. Lomax.
    Mr. Lomax. One more story. Your multi-modal trip sounds 
like one I took from London to Calais for lunch 1 day. It took 
the whole day, but my family had a great time, and we got to 
ride many different modes of transportation. They still 
complain about my interest in transportation.
    I think really your question, I would suggest, has an 
answer in both answering Senator Sanders and Senator Inhofe. 
You are really talking about local decisionmaking that comes 
from a data driven process, an interest in attaining some 
goals. So, I think there is a real connection here between the 
local interests, and what you all can do is help foster some of 
that data driven process. Some of the reporting requirements in 
Senator Oberstar's bill could be reporting of metrics. It does 
not have to be to standards that the Federal Government 
suggests or mandates, but it could be to specify the measures 
and compare them to local standards.
    And then combine that with the support for the financing 
that really only happens when people understand what the value 
of the investment is. I think some of our lack of 
transportation investment comes from the fact that people just 
do not understand what they get.
    Senator Sanders. OK. Thank you very much.
    Senator Carper. I thank you as well.
    Senator Sanders. Senator Udall.
    Senator Udall. Thank you very much, Mr. Chairman, and it is 
good to see that we have some agreement here between our 
Ranking Member and the Chairman on infrastructure issues. This 
is a welcome development.
    Clearly, doing infrastructure, we need to do 
infrastructure, as I think most of you have emphasized in your 
testimony, because it is an investment in the future. And in 
this economic time we are in, it certainly creates jobs in both 
rural and urban communities that we need created.
    I wanted to focus a little bit on the rural part of this, 
so any of you that can comment on this. You know, 
transportation systems are critical for the economic health of 
rural communities. We have--an example I want to give you, is 
dairies in rural areas.
    In Roosevelt County in New Mexico, it is a home to many 
large dairies that rely on a transportation network to deliver 
their milk, milk products, for processing and sale. 
Unfortunately the roads serving the dairies are in such 
disrepair that dairy owners must pay extra freight fees to 
allow for the detours and the delays that the truckers 
encounter.
    It sounds like something that Mr. Marlatt mentioned in 
terms of getting the renewable infrastructure, the turbines and 
all of that, into the area to do your rural development.
    So, what should be included in the reauthorization to 
ensure that the condition of rural roads is also included as a 
priority? Any of you, please go ahead.
    Mr. Marlatt. Thank you, Senator. I think the main thing is 
it is important to remember that we cannot divorce the fact 
that we have to--we need to maintain the integrity of our roads 
and bridges and provide the infrastructure to move products 
from Point A to Point B.
    As you well know, being from New Mexico, Texas County, 
which is in my district, is the sixth largest ag producing 
county in the Nation. There is a lot of product that moves 
every day out of Texas County, out of my district, and is 
disbursed to the rest of the United States. There is a lot of 
energy in my district that is moved from Point A to Point B to 
provide for the urban areas on a daily basis.
    Well, we do not have a lot of rail or public transit. We do 
have some horse drawn carriages in my district. But I think the 
main thing that we need to look at is that we do not want to 
take away from the ability to expand our lanes, to expand our 
shoulders.
    Transit, I do not feel like it is a great option in rural 
America. I think that it causes expansion of our roads to stop 
when we are investing in simply transit, and I really feel like 
that type of problem is replicated all throughout rural 
America. I think that maintaining and investing in the 
integrity of our roads and bridges is something that we need to 
do all we can to continue to fund.
    Senator Udall. Thank you. Any of you, please, Mr. Haggerty.
    Mr. Haggerty. Just talking about roads here for a second, 
but another very vital part of roads is the Bridge Program and 
eliminating the Federal Bridge Program, more particularly the 
Federal Off-Road System Set Aside, would certainly be a 
mistake.
    The 15 percent set aside currently totals about $700 
million per year and often goes to repairing our county owned 
bridges and is often the only Federal Highway Funds received by 
rural county governments.
    We--the GAO has documented that the program has been 
successful in decreasing the number of deficit off lying 
bridges. It seems to us that if you think deficit bridges are a 
national problem the best way to attack the problem is to 
retain a dedicated funding stream, that is the existing 
program, and not allow States to transfer bridge funds to other 
categories.
    Senator Udall. Great. Any other?
    Thank you, Mr. Chairman. I appreciate it.
    Senator Sanders. Mr. Smith, did you want to comment?
    Mr. Smith. Yes, Senator, if I may. Our rural program 
includes keeping national highway system and off system bridges 
eligible. And in many rural areas they no longer are. But it is 
also not a one size fits all. In New Mexico the Railrunner 
Commuter Service links small towns between Albuquerque and 
Santa Fe. In Mississippi it is the Amtrak Crescent through my 
hometown of Meridian. We are looking for choices. It is about 
choice, and people are looking for other options as a way to 
stay connected and to get to the goods and services they need 
for everyday life.
    Senator Sanders. I am going to have to run and give the 
Chair over to Senator Udall. Senator Inhofe, did you have 
another question for----
    Senator Inhofe. Yes, I did. I know that we are about out of 
time here.
    The big problem we have not devoted enough time to is how 
we are going to pay for all this stuff. And we talked about, 
you know, the different taxes. When we did--and I have been 
around through TEA-21 in 1991 and then SAFETEA in 1998 and then 
SAFETEA-LU, or whatever it was, in 2005. In fact, I was the 
author of that bill.
    We, at that time, recognized that we have been doing the 
same funding types of sources since the Eisenhower 
administration. And that is why I say that we need to get more 
innovative than that.
    I would like to direct this at you, Mr. Lomax, because 
Texas does some innovative things. You know, people always say 
they want change until there is change, and they do not want 
change. And you know what I am talking about because you guys 
went through it in Texas. And so they did in Indiana and 
Virginia and other States that tried that. But you have been 
very aggressive, and I applaud you for that.
    Just briefly tell us some of the partnership types of 
things that you have talked about in Texas, some of the 
problems, the misrepresentations, the hysteria that has come 
from that, and that might help us, direct us a little bit, on 
what me might want to do. There has got to be a better way than 
just continuing to do it as we have done in the past and still 
meeting those.
    Before you came in, Mr. Chairman, I talked about it was 
$286.4 billion, the 2005 bill. It was huge. But that did not 
even pay for the maintenance of what we have. So, we have to 
get more creative.
    Mr. Lomax, would you share your thoughts with us and your 
experiences in Texas?
    Mr. Lomax. OK. I do not want to downplay the role of 
hysteria, but I think one of the things that Texas has done is 
to explore a bunch of options. I think some of those options 
have not been well understood, and I would suggest that there 
is a role for not just public information but public 
involvement in any set of options.
    I think one of the things that Texas is known for is trying 
to get the private sector involved in transportation----
    Senator Inhofe. Into partnerships.
    Mr. Lomax. As a partnership with the public entities, 
trying to get some more financial leverage, trying to find 
people with creative ideas. I think that is probably the 
cornerstone of what Texas has tried to do, is to get more money 
but also more creativity on how to solve the problems.
    Certainly the toll road projects are the ones that have 
gotten the most attention. I think there are a variety of other 
operating treatments. Just coordinating the traffic signals, 
getting the crashes and stalled vehicles out of the roads.
    Houston has essentially a contract with a bunch of 
different tow companies where they are responsible for a 6-
minute response time. If there is a crash or stalled vehicle, 
those tow companies have to respond immediately. We have seen a 
10 to 12 percent reduction in crashes and about a $30 billion 
savings in congestion just from that kind of a program. That is 
about a $3 million or $4 million a year seeing a 10 to 1 return 
rate on that.
    So, I think a combination of big projects, the toll road 
interests, as well as small projects.
    Senator Inhofe. When you say toll roads, are you talking 
about private toll roads?
    Mr. Lomax. In some cases they are private toll roads. There 
is a toll road that connects the Austin and San Antonio areas 
on the east side that is going to be a privately operated toll 
road.
    Senator Inhofe. Now, on the innovation thing. Well, first 
of all, Senator Marlatt, you said that you had some kind of 
innovative funding mechanisms. Is there anything that is 
consistent with our conversation now that you can share with us 
that has come out of your study, I guess there on the State 
level in Oklahoma?
    Mr. Marlatt. It is an innovative funding task force that is 
just being created that will look at all kinds of 
opportunities, whether public or private, and on the public-
private partnership program. I think it is important--and you 
know this well--I think it is important for the members of the 
Committee to know that in Oklahoma, maybe not down the line as 
funding mechanisms, but as far as stretching the dollar and 
making the dollar go as far as possible, in Oklahoma we have an 
interesting program where we actually allow the Department of 
Transportation--the agency actually selects the process on a 
critical needs basis.
    We have taken the politics out of the development and are 
actually addressing our needs on a critical needs basis. And 
the agency then has a responsibility to report back to the 
House and Senate and the Governor on the progress that they 
have made and making sure that they are being responsible and 
how they are spending the dollars. But it actually has given 
the control on a local level and allowed them to address the 
needs that they see fit.
    Senator Inhofe. Any of the rest of you on this? Because 
what Bryce is saying is true in Oklahoma. Of course, we are 
blessed with probably the best Transportation Secretary of any 
of the States. And we do it by needs by district, and we do not 
come in and say, well, this is the area that I want to help. It 
is not that type of thing. We spread those out.
    Is there any other, anything particular in the way of an 
innovative thing that you are aware of that has happened in 
your States or areas that you would want to share with us?
    Mr. Haggerty. Well, Senator, when you talk about 
innovation, and I am now speaking as an MTC Commissioner for 
the San Francisco Bay Area, we have seven of our nine counties, 
which are MPOs, or Metropolitan Planning Organizations, that 
are half-cent sales tax authority. What does that mean? That 
means that every time you buy something, a half-cent goes to 
transportation projects in Alameda County, for example. In 
Alameda County prior to the recession we were raising 
approximately $110 million a year that would go toward 
transportation projects.
    And we certainly believe that gives us a leg up and the 
ability to do the necessary planning work to then come to the 
Federal Government and say, here is a project, we have worked 
it through, not only the locals, which we start down with the 
cities and the counties, and then if filters up to the MPO, and 
then MPO puts together a list of projects through, whether it 
would be our 2035 Plan or whatever, that has a list of priority 
projects, and then we move those up either to the State or the 
Federal Government to implement them.
    So, I mean, I think that is something that we have done 
that is fairly innovative. We are starting to move some of our 
HOV lanes to HOT lanes, as I had mentioned in my earlier 
testimony. That money will be used to dedicate transit funding 
in that corridor.
    You know, we are doing everything we can. We were fortunate 
to have Steve Heminger, who is our Executive Director of our 
MPO, sit on a national commission that actually made 
recommendations to Congress. And we actually are implementing a 
lot of the stuff that came out of that process. For example, 
congestion pricing, which I mentioned in my earlier testimony 
also.
    Senator Inhofe. Good. Well, let us do this. I know we have 
gone beyond our timeframe. But I would like to have--when we 
say for the record, we normally are asking you, after this 
hearing is over, that you give us, share your experiences with 
us on anything innovative that you have either tried and has 
not worked. That is our big problem here. We have got to think 
of a way to pay for all of this stuff.
    When you said there is going to be, we are looking at a 
$500 billion problem, I agree with you. But you have got to 
come up with it. And I just think we are going to have to 
deviate from our old 60-year-old behavioral patterns.
    Mr. Townsend. May I have time here?
    Senator Inhofe. Does he have time here? OK. Go ahead.
    Mr. Townsend. We are working on regional infrastructure 
improvement zones and trying to change the Federal Tax Code so 
that we can have private and public partnerships in business 
invest in the infrastructure improvements. NARC is working on 
that right now.
    Now, in the State of Kentucky, you mentioned the districts. 
We have districts also, and the districts meet with the 
counties, and we agree on what are the worst----
    Senator Inhofe. You establish priorities.
    Mr. Townsend. We set priorities, yes, sir. And then to go 
one step farther, our regional--our ag district or our regional 
cog, which is made up of seven counties and made up of judges 
and mayors and individual representatives, we look at the whole 
area to see what are the worst problem roads in the area. And 
we feel--you brought up a very good question about how to fund 
this. It is--one of the ways I think we are going to have to do 
it is through private and public together.
    Senator Inhofe. You said something there that really 
sparked something in my mind. Now, Bryce, maybe the law has 
changed since I was in the State legislature, but we used to 
have assessment districts in Oklahoma. I assume we still do. 
You were talking about that. That has never entered my mind. 
Assessment districts would be a vehicle by which you could 
exercise the local support for something. It is something to 
think about.
    Mr. Smith. Yes, sir. Senator, in Meridian a large part of 
our success was by public-private partnerships, and we used tax 
increment financing districts which you had run linear along a 
transportation project to help fund that project.
    Also, amending Federal tax laws so that new market tax 
credits could support transit. Transit could be eligible for 
new market tax credits. That would be helpful to the private 
sector as they work with local units of government to provide 
seamless transportation experiences once you get into their 
downtowns.
    Senator Inhofe. That is good. Let me say thank you to all 
five of you and particularly, of course, Bryce, for coming up 
here. It has been very helpful to us.
    Thank you, Mr. Chairman.
    Senator Udall [presiding]. Thank you, Senator Inhofe. You 
have finished your questioning? I think we are ready to wrap up 
here. Great.
    Let me also thank the witnesses in the panel today. Your 
testimony has been very helpful. Certainly, your ideas and 
recommendations are going to be taken into consideration in our 
work here.
    I would ask unanimous consent that the testimony from the 
Transportation Departments of Idaho, Montana, North Dakota, 
South Dakota and Wyoming be inserted in the record. Without 
objection, so ordered.
    [The referenced testimony follows:]
    
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]  
    
    
  
    
    Senator Inhofe. If you would expand that so that we keep 
our books open for another 3 or 4 days so that if they wanted 
to respond in writing to the challenges we have been talking 
about, particularly unique funding mechanisms, they would be 
able to do that?
    Senator Udall. Without objection. That is so ordered. And 
we would welcome that kind of participation.
    With no further business, the hearing is adjourned.
    [Whereupon, at 11:20 a.m. the Committee was adjourned.]

                                 [all]
</pre></body></html>
